No. 20–7988
IN THE

SUPREME COURT OF THE UNITED STATES
ROBERT POYSON,
PETITIONER,
-vsSTATE OF ARIZONA,
RESPONDENTS.
CERTIFICATE OF COMPLIANCE
CAPITAL CASE
BRIEF IN OPPOSITION
MARK BRNOVICH
ATTORNEY GENERAL
BRUNN (“BEAU”) W. ROYSDEN III
SOLICITOR GENERAL
LACEY STOVER GARD
DEPUTY SOLICITOR GENERAL/
CHIEF OF CAPITAL LITIGATION
GINGER JARVIS
ASSISTANT ATTORNEY GENERAL
CAPITAL LITIGATION SECTION
(COUNSEL OF RECORD)
2005 N. CENTRAL AVENUE
PHOENIX, ARIZONA 85004
GINGER.JARVIS@AZAG.GOV
CLDOCKET@AZAG.GOV
TELEPHONE: (602) 542–4686
ATTORNEYS FOR RESPONDENTS

CERTIFICATE OF COMPLIANCE
Undersigned counsel certifies that this Brief in Opposition is double spaced,
uses a 12 point proportionately-spaced Century typeface, and contains 2,510 words.
DATED this 12th day of July, 2021.
/s/ Ginger Jarvis
GINGER JARVIS
ASSISTANT ATTORNEY GENERAL
(COUNSEL OF RECORD)

2

